TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Statistical Profile of Alleged Political
                 Intervention by Tax-Exempt Organizations
                         in the 2004 Election Season


                                        May 12, 2009

                           Reference Number: 2009-10-080




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 12, 2009


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Statistical Profile of Alleged Political Intervention
                             by Tax-Exempt Organizations in the 2004 Election Season
                             (Audit # 200810033)

 This report presents the results of our statistical profile of alleged political intervention by
 tax-exempt organizations in the 2004 election season. The overall objective of this review was
 to provide nationwide statistical information for the 2004 Political Activities Compliance
 Initiative (hereafter referred to as the Initiative) and determine how the Exempt Organizations
 function addressed political activity noncompliance. This audit was requested by the
 United States Senate Committee on Finance and was conducted as part of the Treasury Inspector
 General for Tax Administration Fiscal Year 2009 Annual Audit Plan under the major
 management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The objective of the 2004 Initiative was to promote compliance with the prohibition against
 political campaign intervention by reviewing allegations and initiating examinations of political
 intervention by tax-exempt organizations on an expedited basis. As part of the 2004 Initiative,
 the Internal Revenue Service (IRS) has completed 107 of 110 examinations and issued letters to
 the majority of examined tax-exempt organizations warning them of the consequences of future
 prohibited political activity. However, closing letters sent to tax-exempt organizations did not
 always state whether the IRS determined the prohibition against political intervention had been
 violated, which can be confusing for tax-exempt organizations.
                       Statistical Profile of Alleged Political Intervention by
                      Tax-Exempt Organizations in the 2004 Election Season




Synopsis
For the 2004 Initiative, the IRS opened 110 examinations and we were able to review at least
some information for 99 of them. Examinations most often were initiated after referrals were
received from sources external to the IRS and were almost evenly distributed between churches
and charities. The examinations mainly concerned tax-exempt organizations that had allegedly
been involved in a single instance of potentially prohibited political intervention and involved
issues/campaigns at the national level slightly more than at the State and local level. In addition,
examinations involved a wide array of issues, such as distribution of printed and electronic
information, as well as verbal statements and direct political contributions.
Through November 2008, the IRS had completed 107 of the 110 examinations. The majority of
the examinations resulted in closing letters issued by the IRS to the tax-exempt organizations,
warning them of the consequences of future prohibited political activity. The IRS revoked the
tax-exempt status of six organizations as a result of examining the organizations for political
campaign intervention. We determined that the facts and circumstances of the cases that
involved an organization whose tax-exempt status was revoked were clearly different from those
of organizations that received only a warning. At the conclusion of an examination, the IRS can
also assess an excise tax; however, this is rare because the circumstances do not always lend
themselves to imposing or being able to calculate a tax.
As of November 2008, the IRS’ inventory system showed that the IRS had substantiated
prohibited political activity in 76 (71 percent) of the 107 examinations it had completed. While
reviewing case information, we found that this number was overstated. Based on our review of
case files, the IRS incorrectly coded 14 cases as involving violations of the political intervention
prohibition when no violations occurred. While the data still shows that a majority of
examinations resulted in the IRS determining that tax-exempt organizations had violated the
prohibition, it is important that this information be accurate because it is reported to external
stakeholders. We determined that the incorrect coding was due to confusion over how to classify
case results on the inventory system.
In addition, 15 of the closing letters from the 99 case files we reviewed did not specifically state
whether the IRS determined that the prohibition against political intervention had been violated,
which can be confusing for tax-exempt organizations that spend resources on a lengthy
examination. Closing letters were sometimes silent on whether the prohibition had been violated
because of a lack of guidance to ensure that closing letters clearly state whether prohibited
political activities occurred.




                                                                                                   2
                       Statistical Profile of Alleged Political Intervention by
                      Tax-Exempt Organizations in the 2004 Election Season




Recommendation
We recommended that the Director, Exempt Organizations, create and issue guidance to ensure
that 1) IRS examiners are guided on the use of the correct disposal code when political
intervention is not substantiated and 2) closing letters to tax-exempt organizations clearly state
whether a prohibited political activity violation was substantiated.

Response
The Commissioner, Tax Exempt and Government Entities Division, agreed with our findings and
assessment of the measurable benefits on tax administration. The Exempt Organizations
function has completed corrective actions to address our recommendations by creating and
issuing guidance in its Initiative training materials, including providing sample closing letters for
use by examiners. IRS examiners are instructed to refer to and comply with this guidance in
working Initiative cases. As a check to ensure this guidance is followed, the Initiative Team
Leader, using the Initiative training materials, is required to review and approve all closing
letters before issuance. As part of this review and approval process, he or she provides the
correct disposal code to be used by the examiner and ensures that closing letters to tax-exempt
organizations clearly state whether a prohibited political activity violation was substantiated.
This guidance is presented during training and is reinforced in regular conference calls with
examiners, managers, the Initiative Team Leader, Counsel, and others. Management’s complete
response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                     3
                              Statistical Profile of Alleged Political Intervention by
                             Tax-Exempt Organizations in the 2004 Election Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Political Activity Examinations Typically Originated From
          External Sources and Involved Both Churches and Charities ......................Page 5
          Political Activity Examinations Typically Involved Local
          Tax-Exempt Organizations Who Allegedly Committed a
          Single Prohibited Act ...................................................................................Page 6
          Political Activity Examinations Involved Tax-Exempt
          Organizations That Distributed Printed and Electronic
          Material, As Well As Made Verbal Statements and
          Campaign Contributions ...............................................................................Page 7
          The Majority of Examinations Resulted in Warning Letters
          Being Sent to Tax-Exempt Organizations ....................................................Page 7
          A Clear Demarcation Exists Between Organizations Whose
          Tax-Exempt Status Was Revoked Versus Organizations
          That Retained Their Tax-Exempt Status.......................................................Page 8
          Excise Taxes on Political Activities Are Difficult to Assess........................Page 9
          Initiative Results Were Misstated .................................................................Page 9
                    Recommendation 1:........................................................Page 10

          Closing Letters Issued at the Conclusion of an Examination
          Were Not Always Clear ................................................................................Page 10
                    Recommendation 2:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
                  Statistical Profile of Alleged Political Intervention by
                 Tax-Exempt Organizations in the 2004 Election Season



Appendix IV – Outcome Measures...............................................................Page 17
Appendix V – Management’s Response to the Draft Report .......................Page 18
       Statistical Profile of Alleged Political Intervention by
      Tax-Exempt Organizations in the 2004 Election Season




                  Abbreviations

IRS         Internal Revenue Service
                         Statistical Profile of Alleged Political Intervention by
                        Tax-Exempt Organizations in the 2004 Election Season




                                          Background

Under Internal Revenue Code Section 501(c)(3), 1 charities, educational institutions, and religious
organizations, including churches, are exempt from Federal income tax. To qualify for and
maintain tax-exempt status, organizations must be organized and operated for their tax-exempt
purpose.
While many charities speak out on public issues as an integral part of carrying out their
tax-exempt purpose, tax-exempt organizations are prohibited from participating or intervening in
any political campaign on behalf of, or in opposition to, any candidate for public office.
Charitable, educational, and religious organizations, including churches, cannot endorse
candidates, make donations to campaigns, engage in fundraising, distribute statements, or
become involved in any other activities that may be beneficial or detrimental to any particular
candidate. Activities which encourage people to vote for or against a particular candidate violate
the political campaign prohibition.
The prohibition against political activities for charities and churches has existed since the
1954 revision of the Internal Revenue Code. However, in the 2004 election cycle, the Internal
Revenue Service (IRS) recognized that referrals of potential political intervention by charities
and churches were increasing. In response, the IRS initiated a Political Activities Compliance
Initiative (hereafter referred to as the Initiative) in June 2004. The Initiative was part of a
multipronged strategy for the Exempt Organizations function to guide, publicize, perform
outreach, and accelerate the process of determining whether tax-exempt organizations should be
examined. The objective of the Initiative was to promote compliance with the prohibition
against political campaign intervention by reviewing allegations and initiating examinations of
political intervention by tax-exempt organizations on an expedited basis. Since the
2004 Initiative, the IRS has continued to conduct political activity compliance initiatives during
Federal election years.
In November 2004, we initiated a review of the Initiative at the requests of the former
IRS Commissioner and the Commissioner, Tax Exempt and Government Entities Division. We
reported in February 2005 2 that the Tax Exempt and Government Entities Division handled
referrals of potential political campaign intervention consistently, but the referrals were not
always processed in a timely manner. We limited that review to the referrals because some of
the referrals had just been assigned for examination at the time of our fieldwork. Subsequently,
at the request of the former IRS Commissioner, we reviewed the 2006 Initiative and assessed the

1
 Internal Revenue Code Section 501(c)(3) (2006).
2
 Review of the Exempt Organizations Function Process for Reviewing Alleged Political Campaign Intervention by
Tax Exempt Organizations (Reference Number 2005-10-035, dated February 17, 2005).
                                                                                                       Page 1
                          Statistical Profile of Alleged Political Intervention by
                         Tax-Exempt Organizations in the 2004 Election Season



effectiveness of the Tax Exempt and Government Entities Division in addressing alleged
political campaign intervention by tax-exempt organizations and determined whether actions had
detected potential repeated campaign intervention by previously identified organizations. We
reported that the Exempt Organizations function increased its efforts to educate tax-exempt
organizations about prohibited political activities and enhanced several internal processes.
However, it could further improve its effectiveness by tracking the reasons that timeliness goals
are not always met and by ensuring that all employees clearly understand what should be
included in the Initiative. 3
Examinations of potentially prohibited political activity originate from referrals that are received
from both IRS employees and from external sources. The referrals are evaluated by an
independent, experienced group of Exempt Organizations function employees, known as the
Referral Committee. 4 The Committee considers the referral and supporting evidence and decides
whether the referral warrants an examination. Upon initiating an examination, the Exempt
Organizations Examination function notifies the tax-exempt organization that it will be
investigated for potentially prohibited political activity.
As part of our continuing efforts to assess how the IRS addresses tax-exempt organizations that
potentially participated in prohibited political activities, we met with the United States Senate
Committee on Finance on August 1, 2007. During the meeting, staff members expressed an
interest in the scope of violations of the prohibition on political intervention as well as the size of
the organizations involved in the 2004 Initiative. They questioned whether the cases reviewed
were identified by the IRS or by sources outside the IRS. The staff members also were interested
in an assessment on the magnitude of political intervention substantiated through examinations,
the egregiousness of the interventions, whether substantiated political intervention involved
national or local politics, and the method of intervention.
This review was limited to providing statistical information on the 2004 Initiative and the criteria
for determining how the Exempt Organizations function closed examination cases concerning
prohibited political activities by tax-exempt organizations. We did not assess actions taken by
examiners during their review of tax-exempt organizations or their conclusions as to whether or
not tax-exempt organizations participated in prohibited political activities. In addition, our
review was limited to information available for our review. The 2004 Initiative consisted of
110 examinations. In November 2008, three examinations from the Initiative remained open and
were not available for review. In addition, the IRS could not locate 19 of the closed examination
case files at the Ogden Campus, which is where many of the case files were sent after they were

3
  Improvements Have Been Made to Educate Tax-Exempt Organizations and Enforce the Prohibition Against
Political Activities, but Further Improvements Are Possible (Reference Number 2008-10-117, dated June 18, 2008).
4
  The Referral Committee is comprised of three members who are experienced Exempt Organizations function
technical employees (e.g., senior examiners, function specialists, group managers, or area managers). The
Committee’s responsibility is to consider, in a fair and impartial manner, whether information items referred have
examination potential.
                                                                                                          Page 2
                      Statistical Profile of Alleged Political Intervention by
                     Tax-Exempt Organizations in the 2004 Election Season



closed. However, the IRS was able to provide some information for 11 of the 19 missing cases.
When possible, we used this information in our analyses, which enabled us to review at least
some information from a total of 99 examinations performed in the 2004 Initiative.
This review was performed at the Exempt Organizations function Examinations office in
Dallas, Texas, during the period April through December 2008. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                             Statistical Profile ofAlleged Political Intervention by
                            Tax-Exempt Organizations in the 2004 Election Season




                                         Results of Review

For the 2004 Initiative, the IRS opened 110 examinations and we were able to review at least
some information for 99 of them. Examinations most often were initiated after referrals were
received from sources external to the IRS and were almost evenly distributed between churches
and charities. The examinations mainly concerned tax-exempt organizations that had allegedly
been involved in a single instance of potentially prohibited political intervention and involved
issues/campaigns at the national level slightly more than at the State and local level. In addition,
examinations involved a wide array of issues, such as distribution of printed and electronic
information, as well as verbal statements and direct political contributions.
Through November 2008, the IRS had completed 107 of the 110 examinations. The majority of
the examinations resulted in closing letters issued by the IRS to the tax-exempt organizations,
warning them of the consequences of future prohibited political activity. The IRS revoked the
tax-exempt status of six5 organizations as a result of examining the organizations for political
campaign intervention. We determined that the facts and circumstances of the cases that
involved an organization whose tax~exempt status was revoked were clearly different from those
of organizations who received only a warning. At the conclusion of an examination, the IRS can
also assess an excise tax; however, this is rare because the circumstances do not always lend
themselves to imposing or being able to calculate a tax.
As of November 2008, the IRS' inventory system showed that the IRS had substantiated
prohibited political activity in 76 (71 percent) of the 107 examinations it had completed. While
reviewing case information, we found that this number was overstated. Based on our review of
case files, the IRS incorrectly coded 14 cases as involving violations of the political intervention
prohibition when no violations occurred. While the data still shows that a majority of
examinations resulted in the IRS determining that tax-exempt organizations had violated the
prohibition, it is important that this information be accurate because it is reported to external
stakeholders. We determined that the incorrect coding was due to confusion over how to classify
case results on the inventory system.
In addition, we determined that 15 of the closing letters from the 99 case files we reviewed did
not specifically state whether the IRS determined that the prohibition against political
intervention had been violated, which can be confusing for tax-exempt organizations that spend
resources on a lengthy examination. Closing letters were sometimes silent on whether the
prohibition had been violated because of a lack of guidance to ensure that closing letters clearly
state whether prohibited political activities occurred.


5   Five or anizations'tax-exem t status was revoked for violatin the rohibition on political activity.


                                                                                                          Page 4
                             Statistical Profile of Alleged Political Intervention by
                            Tax-Exempt Organizations in the 2004 Election Season



Political Activity Examinations Typically Originated From External
Sources and Involved Both Churches and Charities
Examinations of tax-exempt organizations for potentially prohibited political activities are
opened solely on the basis of referrals or allegations received. Referrals concerning potential
prohibited activities can be received from external sources or from within the IRS. The
IRS Exempt Organizations function reviews these referrals and performs research to gather
evidence that will assist in making a determination on whether an examination for prohibited
political activity is warranted. This evidence is then provided to an independent, experienced
group of Exempt Organizations function employees, known as the Referral Committee. The
Committee considers the referral and supporting evidence and decides whether the examination
will be performed.
Figure 1 shows that referrals that resulted in an examination most often originated from sources
external to the IRS. In total, individuals external to the IRS and watchdog organizations 6
accounted for 74 political intervention examinations, while IRS employees accounted for 17 of
the political activity examinations. The eight remaining examinations originated from both
IRS employees and sources external to the IRS.
                           Figure 1: Source of 2004 Initiative Examinations

     60
     50
     40
     30
     20
     10
       0
               External         IRS            Watchdog     Combination      Combination Combination
              Individual      Employees       Organizations  of IRS and       of IRS and   of Watchdog
             Informants                                        External       Watchdog     Organizations
                                                              Individual     Organizations and External
                                                             Informants                      Individual
                                                                                            Informants

    Source: Our review of 2004 Initiative closed examination case files.

Also, referrals that resulted in examinations for political intervention were almost evenly
distributed between churches (47 percent) and charities (53 percent).

6
 Watchdog organizations are often nonprofit groups that monitor private and Government activities and inform the
public of actions it believes should be illuminated.
                                                                                                         Page 5
                       Statistical Profile of Alleged Political Intervention by
                      Tax-Exempt Organizations in the 2004 Election Season



Political Activity Examinations Typically Involved Local Tax-Exempt
Organizations Who Allegedly Committed a Single Prohibited Act
Figure 2 illustrates that most organizations were investigated for a single issue or event, while
other organizations were investigated for multiple potential violations.
        Figure 2: Number of Infractions Being Investigated Per Examination


                                                  Undeterminable
                                          Multiple     1%
                                           24%




                                                              Single
                                                               75%




                  Source: Our review of 2004 Initiative closed examination case files.

Figure 3 illustrates that the majority of the Initiative examinations involved local organizations.
We defined a local organization as an organization whose outreach activities typically do not
extend throughout the nation or internationally. A national organization refers to an organization
whose outreach would extend to multiple geographic areas across the United States. An
international organization refers to an organization whose outreach activities would extend
beyond the United States borders.
   Figure 3: Types of Tax-Exempt Organizations Examined in the 2004 Initiative


                                             International
                                                 10%

                                       National
                                        20%


                                                              Local
                                                              70%




                   Source: Our review of 2004 Initiative closed examination case files.


                                                                                             Page 6
                           Statistical Profile of Alleged Political Intervention by
                          Tax-Exempt Organizations in the 2004 Election Season



 Political Activity Examinations Involved Tax-Exempt Organizations
 That Distributed Printed and Electronic Material, As Well As Made
 Verbal Statements and Campaign Contributions
 Figure 4 shows the types of issues that were examined for political campaign intervention and
 the number of examinations that involved the issue.
        Figure 4: Types of Issues Examined for Political Campaign Intervention

                                                                                             Number of Cases
                                   Issue Examined                                             With the Issue
 Tax-exempt organizations distributed printed material (e.g., printed
 documents supporting candidates, improper voter guides, posted signs on                               46
 its property endorsing a candidate).
 Tax-exempt organizations made verbal statements (e.g., a church official
 making a statement during normal services endorsing candidates,                                       35
 candidates speaking at an official tax-exempt function).
 Tax-exempt organizations distributed electronic material (e.g., endorsing
 candidates through tax-exempt organization web sites or links on web                                  34
 sites, using email listings to conduct political activities).
 Tax-exempt organizations made inappropriate political contributions. 7                                15
Source: Our review of 2004 Initiative closed examination case files. As noted in Figure 2, some examinations
involved multiple issues, so the totals in the table exceed the total number of examinations reviewed.

 The Majority of Examinations Resulted in Warning Letters Being Sent
 to Tax-Exempt Organizations
 At the conclusion of an examination, the IRS sends a closing letter to each tax-exempt
 organization that has been investigated to inform them of the results of the IRS examination. As
 part of the examination, the Exempt Organizations function makes a determination as to whether
 a tax-exempt organization participated in prohibited political activities. If so, the IRS can decide
 to either revoke the organization’s tax-exempt status or warn the tax-exempt organization of the
 consequences of further prohibited political activities.




 7
   Inappropriate political contributions from tax-exempt organizations examined during the 2004 Initiative ranged
 from $200 to $50,300.
                                                                                                             Page 7
                         Statistical Profile of Alleged Political Intervention by
                        Tax-Exempt Organizations in the 2004 Election Season



Figure 5 shows the results reported by the IRS for 2004 Initiative examinations as of
November 2008.
               Figure 5: Results of 2004 Initiative as Reported by the IRS

           Action Taken by the IRS                 Number of Cases              Percentage of Cases

      Prohibited Political Activities Were
      Identified – A Written Advisory
      Was Issued Warning the
                                                            70                         63.6%
      Tax-Exempt Organization of the
      Consequences of Future Political
      Intervention
      No Prohibited Political Activities
      Were Identified – A Closing Letter
                                                            31                         28.2%
      Was Issued to the Tax-Exempt
      Organization
      Prohibited Political Activities Were
      Identified – The Tax-Exempt                           6                           5.5%
      Status Was Revoked
      Examination Pending                                   3                           2.7%
      Total Examination Cases                              110                          100%
     Source: 2004 Initiative examination inventory control tracking sheet as of November 5, 2008.

A Clear Demarcation Exists Between Organizations Whose
Tax-Exempt Status Was Revoked Versus Organizations That Retained
Their Tax-Exempt Status
Since there are a variety of circumstances that could lead to a political activity examination, the
IRS has stated that it uses the various facts and circumstances of each examination to determine
whether substantiated political intervention results in a warning letter or revocation of
tax-exempt status. In our review of cases where the IRS determined that prohibited political
activities occurred, we determined that there was a clear differentiation between cases where an
organization’s tax-exempt status was revoked and cases where organizations kept their
tax-exempt status and received a warning letter. We noted that the factors that seemed to weigh
heavy in the IRS’ determination of whether to revoke the organization’s tax-exempt status or to
issue a letter warning the organization to discontinue prohibited political activities tended to be
1) the egregiousness of the intervention, 2) whether the tax-exempt organization agreed to stop
conducting prohibited activities, 3) whether the tax-exempt organization took steps to prevent
future prohibited activities, and 4) whether the tax-exempt organization agreed it was not
operating as a tax-exempt organization.

                                                                                                      Page 8
                        Statistical Profile of Alleged Political Intervention by
                       Tax-Exempt Organizations in the 2004 Election Season



Excise Taxes on Political Activities Are Difficult to Assess
At the conclusion of an examination, the IRS can assess an excise tax if it can determine the
amount of tax-exempt assets used to support prohibited political activities. However, in some
cases, excise taxes do not apply because tax-exempt assets were not used (e.g., a tax-exempt
official making a partisan speech at a tax-exempt function). In other cases, it is difficult for the
IRS to calculate the amount of tax-exempt assets used in a prohibited activity. To assess an
excise tax, the IRS must establish that assets of the organization were used to support prohibited
political activities and it also must be able to determine the amount of the expenditure. For
example, if an organization posts political comments on its web site, it is difficult for the IRS to
determine how much the distribution of these comments actually cost. In addition, the
Commissioner, Tax Exempt and Government Entities Division, stated that excise tax
assessments on political expenditures are difficult to uphold due to the requirement that
violations be “willful” on the part of the tax-exempt organization. As a result, it is rare for the
IRS to assess excise taxes at the conclusion of an examination regarding political intervention.
In 5 (5 percent) of the 99 cases, the IRS assessed excise taxes in the amount of $12,945.37.

Initiative Results Were Misstated
The IRS uses disposal codes to document the results of Initiative examinations on its inventory
system. Since Initiative results are reported to external stakeholders and may be used to make
future management decisions, sound management practices dictate that the results of Initiative
examinations be documented and reported accurately. However, based on our review of case
files, we determined that Initiative results communicated to external stakeholders were
inaccurate. IRS records show that 68 tax-exempt organizations in the 99 case files we reviewed
violated the prohibition against political activities and were issued a warning letter. However,
the case files showed that only 54 tax-exempt organizations actually violated the prohibition
against political activities. We agree that the noncompliance rate is still high; however,
information prepared for external stakeholders needs to accurately reflect the results of
examinations. 8
In addition to misstating results of the 2004 Initiative, the Exempt Organizations function
continues to research and monitor organizations that violated the prohibition to provide some
assurance that prohibited political activities have ceased. Since results were misclassified for
14 tax-exempt organizations, IRS resources may have been used unnecessarily to perform the
followup work. The Initiative Team Leader stated that this occurred because initially there was
confusion over how to classify case results on the inventory system.
Since the 2004 Initiative, IRS management incorporated training so that examiners are guided on
the use of the correct disposal code, which indicates whether political intervention was

8
    See Appendix IV.
                                                                                              Page 9
                      Statistical Profile of Alleged Political Intervention by
                     Tax-Exempt Organizations in the 2004 Election Season



substantiated. In addition, the Initiative Team Leader reviews all case closings with the
IRS examiner to ensure the examination is classified correctly. While training has been updated
and the Initiative Team Leader is taking action to ensure results are recorded accurately, the
procedures in effect at the time of our audit do not include guidance on choosing the correct
disposal code when political intervention is not substantiated. Clarifying procedures will further
reduce the risk of reporting inaccurate results to external stakeholders.

Recommendation
Recommendation 1: The Director, Exempt Organizations, should create and issue guidance
to ensure that IRS examiners are guided on the use of the correct disposal code when political
intervention is not substantiated.
       Management’s Response: The Commissioner, Tax Exempt and Government
       Entities Division, agreed with the finding and has completed corrective actions to address
       this recommendation. Guidance has been created and presented in Initiative training
       materials, including sample closing letters for examiners to use. Examiners are instructed
       to refer to and comply with this guidance in working Initiative cases. As a check to
       ensure that this guidance is followed, the Initiative Team Leader is required to approve
       all closing letters before issuance. As part of this process, the correct disposal code is
       provided to the examiner. This guidance is presented during training and is reinforced in
       regular conference calls with examiners, managers, the Team Leader, Counsel, and
       others.

Closing Letters Issued at the Conclusion of an Examination Were Not
Always Clear
Upon initiating an examination, the IRS sends a letter to the tax-exempt organization alerting
them of the IRS’ intent to conduct an examination for potential prohibited political activity. The
examination is used to gather additional evidence to determine whether a tax-exempt
organization conducted prohibited political activities. At the conclusion of an examination, the
IRS sends a closing letter to the tax-exempt organization that was examined. The closing letter
is used to inform a tax-exempt organization of the results of an examination. It also provides an
opportunity to educate tax-exempt organizations on whether activities under examination are
prohibited.
While we were compiling statistical information regarding the results of political activity
examinations, we discovered it was sometimes difficult to determine from the closing letters sent
to tax-exempt organizations whether the IRS substantiated that prohibited political activity had
occurred. In 15 (15 percent) of the 99 case files we reviewed, the IRS did not clearly state in the
closing letter whether it substantiated that the tax-exempt organization conducted inappropriate
political activities, which can be confusing for tax-exempt organizations. For example, we found

                                                                                           Page 10
                        Statistical Profile ofAlleged Political Intervention by
                       Tax-Exempt Organizations in the 2004 Election Season




                                    ----'------                                                          1


By their very nature, IRS examinations are highly intrusive and require resources of both the IRS
and the tax-exempt organization being examined. In addition, some political activity
examinations are lengthy due to their complexity and the fact that certain cases involve
additional legal requirements that must be followed. For example, some of the initial
examinations in the 2004 Initiative were started in late 2004, while some of the examinations
were not completed until mid-2007 or early 2008, and three were still ongoing when we
completed our fieldwork. The lack of clear and timely feedback at the end of a lengthy
examination can be a burden on tax-exempt organizations. 9 When organizations have not
violated the prohibition on political activity, clear feedback is needed to notify the tax-exempt
organization that it may continue to operate consistent with its tax-exempt status and to provide
assurance that the alleged political actions did not violate prohibited political activity guidelines.
Similarly, when tax-exempt organizations have violated the prohibition on political activity,
clear feedback is needed to ensure that prohibited activities are stopped and that corrective
actions are taken to prevent these types of activities in the future.
Closing letters were sometimes silent on whether the prohibition had been violated because of a
lack of guidance to ensure closing letters to tax-exempt organizations clearly state whether
prohibited political activities occurred. The 2004 Initiative was the first Exempt Organizations
function Examination program to focus exclusively on prohibited political activity. As such, the
Internal Revenue Manual did not have unique procedures for initiating and conducting
examinations or for notifying organizations of the examination results.
Since the 2004 Initiative, sample closing letters are now included in training material that is
given to all examiners who are involved in political activity examinations. Also, upon
concluding an examination for political activities, the closing letters are now reviewed by a
person specializing in the Initiative. While processes have changed since the 2004 Initiative and
training has been updated, the procedures in effect at the time of our audit do not include copies
of the sample closing letters or any other guidance for preparingthe closing letter issued at the
conclusion of an examination and ensuring it clearly states whether or not the IRS detennined
the tax-exempt organization violated the prohibition against political intervention. Clarifying
procedures will further reduce the risk of issuing closing letters that do not provide clear
feedback concerning political activities examinations.




9   See Appendix IV.

                                                                                              Page 11
                      Statistical Profile of Alleged Political Intervention by
                     Tax-Exempt Organizations in the 2004 Election Season



Recommendation
Recommendation 2: The Director, Exempt Organizations, should create and issue guidance
to ensure that closing letters to tax-exempt organizations clearly state whether a prohibited
political activity violation was substantiated.
       Management’s Response: The Commissioner, Tax Exempt and Government
       Entities Division, agreed with the finding and has completed corrective actions to address
       this recommendation. The Exempt Organizations function has created and issued
       guidance in its Initiative training materials, including providing sample closing letters for
       use by examiners. IRS examiners are instructed to refer to and comply with this guidance
       in working Initiative cases. As a check to ensure this guidance is followed, the Initiative
       Team Leader, using the Initiative training materials, is required to review and approve all
       closing letters before issuance to ensure that closing letters to tax-exempt organizations
       clearly state whether a prohibited political activity violation was substantiated. This
       guidance is presented during training and is reinforced in regular conference calls with
       examiners, managers, the Initiative Team Leader, Counsel, and others.




                                                                                           Page 12
                         Statistical Profile of Alleged Political Intervention by
                        Tax-Exempt Organizations in the 2004 Election Season



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide nationwide statistical information for the
2004 Political Activities Compliance Initiative (hereafter referred to as the Initiative) and
determine how the Exempt Organizations function addressed political activity noncompliance.
To accomplish the objective, we:
I.      Determined the source of the 2004 Initiative referrals.
        A. Internal (IRS employees).
        B. External
            1. Watchdog organizations.
            2. Individuals outside the IRS.
        C. Combination of both internal and external sources.
II.     Determined whether criteria for closing examinations with a “no change,” 1 a written
        advisory, or a revocation was applied consistently and whether any excise taxes were
        assessed.
        A. Determined the number of examination cases by type of closure.
            1. No Change.
            2. No Change – Written advisory letter issued for substantiated noncompliance.
            3. Tax-exempt status revoked for substantiated noncompliance.
        B. Determined the number of cases and the total amount of excise taxes that were
           imposed on tax-exempt organizations.
        C. Reviewed written guidance outlined in the Internal Revenue Manual and applicable
           revenue procedures and interviewed Exempt Organizations Examination function
           employees to determine criteria for examination cases closed as 1) no change with
           written advisory and 2) revocation of tax-exempt status.
        D. Requested and reviewed all of the completed examination closed case files for the
           2004 Initiative. Reviewed the cases to determine whether the closure criteria were
           consistently applied by identifying any cases where similar facts and circumstances
           resulted in a different outcome or type of closure.

1
 Examinations are closed as “no change” when the IRS has determined that the tax-exempt organization did not
violate the prohibition on political activity.
                                                                                                       Page 13
                       Statistical Profile of Alleged Political Intervention by
                      Tax-Exempt Organizations in the 2004 Election Season



III.   Determined the method of political intervention substantiated through examinations.
       A. Distribution of printed material (e.g., printed documents supporting candidates,
          improper voter guides, posted signs on an organization’s property endorsing a
          candidate, or use of an organization’s non-profit postal rate to mail out political
          materials).
       B. Verbal statements (e.g., church official making a statement during normal services
          endorsing candidates, or candidates speaking at an official tax-exempt function).
       C. Distribution of electronic material (e.g., endorsing candidates through tax-exempt
          organization web sites or links on web sites, or using email listings to conduct
          political activities).
       D. Making direct or indirect political contributions.
IV.    Determined the magnitude of political intervention substantiated through examinations.
       A. Determined whether the examinations involved national or local politics.
       B. Determined the type of organization (church versus non-church) identified in the
          examination.
       C. Determined whether the examinations involved single or multiple infractions.
       D. Determined the size (local, national, or international) of the tax-exempt organizations
          determined to have participated in inappropriate political activities.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. While part of this review was
limited to providing statistical information on the 2004 Initiative, part of our review involved
how the Exempt Organizations function addressed political activity noncompliance. For this
portion of the audit, we determined that the following internal controls were relevant to our audit
objectives: the Exempt Organizations function’s policies, procedures, and practices for closing
Initiative cases. We evaluated these controls by interviewing management and reviewing case
files.




                                                                                           Page 14
                    Statistical Profile of Alleged Political Intervention by
                   Tax-Exempt Organizations in the 2004 Election Season



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Marjorie A. Stephenson, Lead Auditor
Theresa M. Berube, Senior Auditor
William Simmons, Senior Auditor
Michael A. McGovern, Auditor




                                                                                  Page 15
                    Statistical Profile of Alleged Political Intervention by
                   Tax-Exempt Organizations in the 2004 Election Season



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 16
                       Statistical Profile ofAlleged Political Intervention by
                      Tax-Exempt Organizations in the 2004 Election Season




                                                                                 Appendix IV


                                Outcome Measures

This appendix presents detailed information on the measurable impac~ that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability ofInformation - Actual; 14 examination cases misclassified (see page 9).

Methodology Used to Measure the Reported Benefit:
Based on our review of case files, we determined that Initiative results communicated to external
stakeholders were inaccurate. IRS records show that 68 tax-exempt organizations in the 99 case
files we reviewed violated the prohibition against political activities and were issued a warning
letter. However, case files showed that only 54 of the 68 tax-exempt organizations actually
violated the prohibition against political activities.

Type and Value of Outcome Measure:
•   Taxpayer Burden - Actual; 15 tax-exempt organizations affected (see page 10).

Methodology Used to Measure the Reported Benefit:
While we were compiling statistical information regarding the results of political activity
examinations, we discovered it was difficult to determine from the closing letter sent to the
tax-exempt organization whether the IRS substantiated that prohibited political activity had
occurred. In 15 (15 percent) of the 99 cases we reviewed, the IRS did not clearly state in the
closing letter whether it substantiated that the tax-exempt organization conducted inappropriate
political activities, which can be confusing for tax-exempt organizations. For exam Ie, we found


                                 The lack of clear and timely feedback at the end of a lengthy
1---_.,----,--_ _-:-----:_--;--_--'
examination can be a burden on tax-exempt organizations.




                                                                                           Page 17
       Statistical Profile of Alleged Political Intervention by
      Tax-Exempt Organizations in the 2004 Election Season



                                                       Appendix V

Management’s Response to the Draft Report




                                                              Page 18
 Statistical Profile of Alleged Political Intervention by
Tax-Exempt Organizations in the 2004 Election Season




                                                        Page 19
